Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE OF NEW YORK,
SS:

79494

AFFIDAVIT OF SERVICE

«::OUNTY OF NEW YORK
Haward Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
aver 18 years of age.
That on the 11th day of July 2019 deponent served 1 copy of the within

APPLICATION FOR AN EXTENSION OF TIME WITHIN
WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

David L Finger, Esq.
Finger & Slanina, LLC
1201 Orange Street
One Commerce Center, Suite 725
Wilmington, DE 19801
(302) 573-2525
dfinger@delawgraup.com
Attorney for James R Adams

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on July 11, 2019, pursuant to Supreme Court
Rule 29.5[c]. All parties required ta be served, have been served.

dµ~c[)~
Haward Daniels

Sworn to me this
July 11 . 201 9
NADIA A. OSWALD HAMID
Notary Pubhc, State of New York
No. 010S6101366
Quahfied in Kings County
Commission Expires November 10, 2019

Case Name: Governor of Delaware v. Adams
Docket No. _ _ __

